Highlights
Table of Contents




                    Suitability
                    of Rail
                    Transportation –
                    New Jersey
Findings




                    Network
                    Distribution
                    Center
Recommendation




                    Audit Report
                    Report Number
                    NO-AR-14-013

                    September 29, 2014
Appendices




                                         Print
Highlights
Table of Contents




                    Highlights                                        Background                                                            and has not fully assessed all rail options. Management stated
                                                                                                                                            that rail is not a viable way to meet service standards and does
                                                                      The U.S. Postal Service meets the majority of its long-distance
                                                                                                                                            not fit into its operating plans.
                                                                      surface transportation needs with highway transportation –
                                                                      known as highway contract routes (HCR). In 2013, the Postal
                                                                                                                                            However, we believe rail is a viable option and should be
                                                                      Service spent more than $3.4 billion on HCRs and only
                                                                                                                                            reconsidered. We estimate the Postal Service could save about
Findings




                                                                      about $43 million on rail. However, trends in the highway
                                                                                                                                            $10.8 million annually by using some rail for transportation
                               Opportunities exist to                 transportation industry indicate challenges in attracting qualified
                                                                                                                                            associated with the New Jersey NDC and CDF. Rail could
                                                                      drivers due to driver age, pay, and work demands. According to
                    economically and effectively use                                                                                        accommodate some volume and still meet service standards,
                                                                      industry leaders, rail transportation can provide benefits such as
                                                                                                                                            but would require expanded transit times. It would also require
                                                                      improved service, lower costs, and a smaller carbon footprint.
                      rail to transport some Standard                                                                                       moving some Periodicals through the existing Surface Transfer
                                                                                                                                            Center network, which may add costs.
                     Mail and Package Services Mail                   Our objective was to determine whether opportunities exist to
                                                                      economically and effectively use rail to transport Standard Mail
Recommendation




                     associated with the New Jersey                   and Package Services Mail. This report focuses on the                 What The OIG Recommended
                                                                      New Jersey Network Distribution Center (NDC) and                      We recommended management conduct a cost/benefit
                         NDC and CDF. Management
                                                                      Consolidation and Deconsolidation Facility (CDF).                     analysis of transportation associated with the New Jersey
                        stated that rail is not a viable                                                                                    NDC and CDF to determine if rail is more cost-effective than
                                                                      What The OIG Found                                                    HCR, where service responsive, and test whether some
                      way to meet service standards                                                                                         HCR transportation can be converted to rail. In addition, we
                                                                      Opportunities exist to economically and effectively use rail
                                                                                                                                            recommended management consider moving Periodicals
                    and does not fit into its operating               to transport some Standard Mail and Package Services Mail
                                                                                                                                            through the established Surface Transfer Center network and
                                                                      associated with New Jersey’s NDC and CDF. We found that the
                      plans. However, we believe rail                                                                                       changing operating plans to accommodate rail when doing so is
                                                                      Postal Service can potentially lower transportation costs and
                                                                                                                                            economical and meets service standards.
                     is a viable option and should be                 help achieve its sustainability goals by converting 41 HCR trips
Appendices




                                                                      to rail. The Postal Service uses HCRs because they provide
                                      reconsidered.                   the shortest transit times and the added assurance that all
                                                                      mail meets service standards. In addition, the Postal Service
                                                                      experienced capacity and reliability issues with rail in the past

                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                                                                                                                   Print                                   1
Highlights
                    Transmittal Letter


                                                                      September 29, 2014		
Table of Contents




                                                                      MEMORANDUM FOR:	            DAVID E. WILLIAMS, JR.
                                                                                                  VICE PRESIDENT, NETWORK OPERATIONS




                                                                      FROM: 			                   Robert J. Batta
                                                                                                  Deputy Assistant Inspector General
                                                                                                   for Mission Operations

                                                                      SUBJECT: 	                  Audit Report – Suitability of Rail Transportation –
Findings




                                                                                                  New Jersey Network Distribution Center
                                                                                                  (Report Number NO-AR-14-013)

                                                                      This report presents the results of our audit of the Suitability of Rail Transportation –
                                                                      New Jersey Network Distribution Center (Project Number 13XG034NO000).

                                                                      We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                                      questions or need additional information, please contact James L. Ballard, director,
                                                                      Networking Processing and Transportation, or me at 703-248-2100.
Recommendation




                                                                      Attachment

                                                                      cc:	 Corporate Audit and Response Management
Appendices




                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                                                                                               Print              2
Highlights
                    Table of Contents                                 Cover
                                                                      Highlights.......................................................................................................1
                                                                       Background.................................................................................................1
                                                                       What The OIG Found..................................................................................1
                                                                       What The OIG Recommended...................................................................1
                                                                      Transmittal Letter...........................................................................................2
                                                                      Findings.........................................................................................................4
Table of Contents




                                                                       Introduction.................................................................................................4
                                                                       Conclusion..................................................................................................5
                                                                       Rail Transportation – Cost-Saving Opportunities........................................7
                                                                      Recommendations......................................................................................10
                                                                       Management’s Comments........................................................................10
                                                                       Evaluation of Management’s Comments.................................................. 11
                                                                      Appendices..................................................................................................13
                                                                       Appendix A: Additional Information...........................................................14
                                                                         Background ...........................................................................................14
Findings




                                                                         Objective, Scope, and Methodology.......................................................15
                                                                         Prior Audit Coverage..............................................................................16
                                                                       Appendix B. Management’s Comments....................................................17
                                                                      Contact Information.....................................................................................21
Recommendation
Appendices




                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                                                                                                             Print                         3
Highlights
                    Findings                                          Introduction
                                                                      This report presents the results of our self-initiated audit of the Suitability of Rail Transportation for the New Jersey Network
                                                                      Distribution Center (NDC) (Project Number 13XG034NO000). Our objective was to determine whether opportunities exist to
                                                                      economically and effectively use rail to transport mail within the NDC network. This report focuses on opportunities to use rail to
                                                                      transport mail associated with the U.S. Postal Service’s New Jersey NDC and Consolidation and Deconsolidation Facility (CDF).1
                                                                      See Appendix A for additional information about this audit.
                       The Postal Service could save
                                                                      The Postal Service meets the majority of its long-distance surface transportation needs for the NDC and CDF networks with
Table of Contents




                      about $10.8 million annually by                 highway transportation – known as highway contract routes (HCR) – instead of railroads. In 2013, the Postal Service spent
                                                                      more than $3.4 billion on highway contracts – compared with only about $43 million on rail – to move mail and equipment. The
                    transporting some Standard Mail
                                                                      Postal Service uses HCRs because they provide the shortest transit times and the added assurance that all mail meets service
                       and Package Services Mail by                   standards. In addition, the Postal Service experienced capacity and reliability issues with rail in the past and has not fully
                                                                      assessed all rail options. Management stated that rail is not a viable way to meet service standards and does not fit into the
                    rail (for transportation associated               agency’s operating plans.
                                with the New Jersey
                                                                      Trends in the trucking industry indicate that it is facing challenges that may impact its ability to meet demands for service.
                                     NDC and CDF).                    Currently, the highway transportation industry is challenged to find and keep qualified drivers due to driver age, pay, and work
                                                                      demands. Further, fuel costs continue to increase and fuel surcharges are rising to the point where total fuel costs can be
                    The Postal Service uses HCR for                   50 percent of the cost for a long-distance truckload.
                       most of its mail transportation
Findings




                                                                      At the same time, industry trends show that there has been a significant increase in rail use in recent years because of improved
                       because it prefers the control                 service and infrastructure. The industry has invested over $460 billion in capital improvements since 1980 to widen tunnels,
                                                                      repair bridges, separate tracks, and replace intersections with underpasses and overpasses at key points to reduce congestion.
                     and flexibility (in mail departure               The railroad industry has continued investing in its infrastructure by purchasing new equipment, building modern facilities, using
                                                                      double-stacking containers, and developing skilled labor. Some railroads have also worked with the Federal government to build
                       and arrival) that HCR provides
                                                                      new rail centers to improve intermodal capacity and efficiency.
                       and the added assurance this
Recommendation




                                                                      According to industry leaders, rail also offers better fuel economy than HCRs. Use of rail can also reduce highway congestion
                    mail will meet service standards.                 and the carbon footprint. Research has shown that Postal Service competitors have expanded their use of rail by realigning their
                                                                      networks with the nation’s railroads to cut transportation costs and greenhouse gas emissions (see Figure 1 for a comparison of
                                                                      advantages of rail over HCRs based on industry trends).
Appendices




                                                                      1	   In 2010, the Postal Service started using the CDF network to consolidate NDC mail volume for transport. These facilities moved mail from shipping containers and
                                                                           consolidated it into trailers to reduce the number of underused outbound trips.
                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                                                                                                                                             Print                                            4
Highlights                                                            Figure 1. Comparison of HCR and Rail Transportation2




                                                                                                                      Transportation                                                              Personnel
                                                                                                                                                                     Environmental
                                                                                                                          Costs              Transit Time                                         (Qualified)
                                                                                                                                                                        Impact
Table of Contents




                                                                              Highway
                                                                           Contract Routes
                                                                                (HCR)                                                       Hover Over the Categories Above
                                                                                                                                                to Reveal Comparisons


                                                                                       Rail

                                                                      Source: U.S. Postal Service Office of Inspector General (OIG).
Findings




                                                                      Conclusion
                                                                      Opportunities exist to economically and effectively use rail to transport some Standard Mail and Package Services Mail associated
                                                                      with the New Jersey NDC and CDF. The Postal Service uses HCR for most mail transport because management:

                                                                      ■■ Has experienced significant service issues with rail in the past and prefers the control and flexibility in mail departure and
                                                                         arrival that HCR provide;
Recommendation




                                                                      ■■ Based its service standards on the use of HCRs, which have the shortest transit times, are usually more costly, and provide
                                                                         added assurance that all mail will meet service standards;

                                                                      ■■ Has not fully assessed rail as an alternative mode of transportation based on economic value3; and

                                                                      ■■ Does not believe rail is a viable option to meet service standards or fits within the Package Services Mail operational flow.
Appendices




                                                                      2	   The arrow direction indicates whether the category increases or decreases, the green arrows indicate improvement, and the red arrows indicate less desirable costs
                                                                           or service.
                                                                      3	   The Postal Service used already established HCR transit times in its assessment of rail proposals and did not consider expanded transit times for rail.
                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                                                                                                                                             Print                                              5
Highlights                                                            However, we believe rail is a viable option and the Postal Service could potentially reduce transportation costs by converting
                                                                      41 HCR trips4 associated with the New Jersey NDC and CDF to rail. Specifically, we believe the Postal Service could convert
                                                                      30 trips from HCR to rail and still meet service standards5 under its existing Package Services Mail operational flow
                                                                      (see Figure 2). These conversions would enable the Postal Service to eliminate five HCR return trips it would no longer need since
                                                                      rail can accommodate one-way transportation. These two steps combined would save the Postal Service about $9.1 million in
                                                                      transportation costs annually. It could save an additional $1.7 million annually by changing the operating plans for the remaining
                                                                      11 trips, if these changes are cost effective and enable it to meet service standards.

                                                                      Figure 2. Package Services (Bulk Mail) Operational Flow
Table of Contents
Findings
Recommendation




                                                                      Source: OIG analysis.



                                                                      Use of rail may require the Postal Service to send Periodicals through the existing Surface Transfer Center (STC) network on
                                                                      existing HCR transportation. The Postal Service would, however, need to evaluate whether this would be cost effective and
                                                                      enable it to meet its service standards. STCs are centers where First-Class Mail is consolidated for long-distance transport using
                                                                      HCRs to save transportation costs. In some cases, converting to rail would require modifications to existing dispatch operations
                                                                      for Periodicals.6
Appendices




                                                                      4	   The origins and destinations include New Jersey, Atlanta, Denver, Los Angeles, Memphis, Dallas, Jacksonville, San Francisco, Des Moines, Kansas City, and
                                                                           Minneapolis/St. Paul.
                                                                      5	   The Postal Service would need to evaluate the service reliability of the recommended trips and ensure Periodicals are moved through their intended network.
                                                                      6	   There may be some additional costs associated with using the STC network. The Postal Service should analyze existing STC transportation and identify any additional
                                                                           associated costs that might offset the overall savings of using rail.
                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                                                                                                                                            Print                                                6
Highlights                                                            Rail Transportation – Cost-Saving Opportunities
                                                                      We analyzed 67 long-distance HCRs associated with the New Jersey NDC, CDF, and STC. Based on information from two
                                                                      intermodal companies, we found the Postal Service could potentially reduce transportation costs by converting 41 HCR trips to rail.

                                                                      We determined the Postal Service could save about $4.2 million7 by converting 30 trips from HCR to rail without affecting existing
                                                                      operating plans or missing service standard targets (see Figure 3). We determined the estimated monetary savings by subtracting
                                                                      estimated rail costs per trip as provided by suppliers from existing HCR costs per trip considering:
Table of Contents




                                                                      ■■ The annual HCR contract cost for selected trips;

                                                                      ■■ The quoted rail cost for selected trips;

                                                                      ■■ The frequency of HCR trips;

                                                                      ■■ Current service standards,8 critical entry times (CET), and clearance times (CT); and

                                                                      ■■ HCR transportation needed for any day rail was not available.

                                                                      For example, we determined the Postal Service currently spends $5,765,418 in HCR transportation costs annually on four trips
                                                                      originating from New Jersey and destined to the Los Angeles NDC. Rail pricing for the same trips totaled $2,398,587. Since the
Findings




                                                                      pricing the intermodal companies provided did not include rail service for mail processed on Saturday and Sunday, we included
                                                                      additional HCR costs totaling $1,647,262 for those days. When we compared the HCR to the rail cost, we estimated the
                                                                      Postal Service could save $1,719,568 annually by using rail for these trips.

                                                                      Figure 3. Estimated Cost Savings From Implementing Rail Transportation

                                                                                                                                                             Package Services                                         Estimated Cost
Recommendation




                                                                                                                                                              Mail (Bulk Mail)                                       Savings for Trips
                                                                                                                                                               Standards -                  Transit Days             That Meet Service
                                                                       Origin                            Destination              Number of Trips             Days to Deliver                  by Rail                  Standards
                                                                       New Jersey                           Atlanta                         2                           6                           4                      $296,698
                                                                       New Jersey                           Denver                          3                           6                           4                       266,362
                                                                       New Jersey                        Des Moines                         1                           6                           3                       143,991
                                                                       New Jersey                        Jacksonville                       4                           6                           2                       496,162
                                                                       New Jersey                        Kansas City                        1                           6                           4                       363,795
                                                                       New Jersey                        Los Angeles                        4                           7                           5                      1,719,568
Appendices




                                                                       New Jersey                         Minnesota                         1                           6                           3                       226,473


                                                                      7	   Rail transportation costs are typically less expensive but, in some instances, may be more expensive due to the level of service provided.
                                                                      8	   According to management, service standards were based on HCR transportation transit times, which provide the best opportunity to meet established standards.
                                                                           But HCR may not be the most cost effective transportation.
                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                                                                                                                                           Print                                          7
Highlights
                                                                                                                                                                Package Services                                           Estimated Cost
                                                                                                                                                                 Mail (Bulk Mail)                                         Savings for Trips
                                                                                                                                                                  Standards -                    Transit Days             That Meet Service
                                                                       Origin                              Destination              Number of Trips              Days to Deliver                    by Rail                  Standards
                                                                       New Jersey                        San Francisco                        3                             7                            5                        484,193
                                                                       Denver                              New Jersey                         2                             6                            4                        233,355
                                                                       Des Moines                          New Jersey                         3                             6                            2                        190,721
Table of Contents




                                                                       Jacksonville                        New Jersey                         2                             6                            3                        165,005
                                                                       Los Angeles                         New Jersey                         4                             7                            5                       (380,996)
                                                                       Total                                                                  30                                                                               $4,205,327
                                                                       Source: Intermodal companies and the Postal Service.




                                                                      We also determined that converting these 30 trips to rail would eliminate the need for five HCR round trips since rail
                                                                      accommodates one-way transportation. Eliminating these five HCR trips would save about $4.9 million in transportation costs
                                                                      annually (see Figure 4).

                                                                      Figure 4: Estimated Cost Savings From Eliminating Non-Essential Round-Trip Transportation
Findings




                                                                                                                                                                                                             Estimated Cost Savings
                                                                       Origin                                        Destination                               Number of Trips                               from Eliminated Trips
                                                                       Atlanta                                       New Jersey                                2                                             $859,587
                                                                       Los Angeles                                   New Jersey                                3                                             3,997,520
                                                                       Total                                                                                   5                                             $4,857,107
Recommendation




                                                                       Source: The Postal Service.



                                                                      Further, we determined the Postal Service could save about $1.7 million more by converting 11 trips to rail and adjusting operating
                                                                      plans for those trips if doing so is cost effective and still meets service requirements (see Figure 5). These adjustments could
                                                                      include changing the CET or CT.9
Appendices




                                                                      9	   In our analysis we allowed 3 hours at both the origin and destination CDF for consolidation processing. If these times are not met, the mail would, in some cases, have to
                                                                           travel by rail the following day.
                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                                                                                                                                               Print                                                8
Highlights                                                            Figure 5. Estimated Cost Savings From Adjusting Operating Plans

                                                                                                                                                                                        Estimated Cost
                                                                                                                                                Postal Service                            Savings for
                                                                                                                                               Standards (Days   Transit Days By        Trips That Need
                                                                      Origin                              Destination        Number Of Trips      To Deliver)          Rail              Adjustments
                                                                      New Jersey                               Dallas              4                 6                    4                $1,165,014
                                                                      Dallas                               New Jersey              3                 6                    4                 211,280
Table of Contents




                                                                      Denver                               New Jersey              1                 6                    4                  42,266
                                                                      Jacksonville                         New Jersey              1                 6                    4                  89,271
                                                                      Los Angeles                          New Jersey              2                 7                    5                 219,604
                                                                      Total                                                        11                                                      $1,727,435
                                                                      Source: Intermodal companies and the Postal Service.



                                                                      Postal Service Rail Initiatives. Over the past few years, the Postal Service has conducted some limited reviews of the potential
                                                                      for increased use of rail to transport mail; however, these reviews did not lead to transportation changes. We identified two rail
                                                                      proposals Postal Service Headquarters (HQ) management reviewed and rejected. Postal Service management determined the
                                                                      proposals would increase transportation costs, in part because of added fees in excess of $15,000 for each leased trailer. They
                                                                      also found the plans would not meet the Postal Service’s mail processing needs.
Findings




                                                                      However, we found many of the intermodal rail companies already include trailer fees in their rates and do not charge separately
                                                                      for them. As for the concerns regarding mail processing, we found that the Postal Service proposals were based on a 4-day
                                                                      requirement for processing mail at the origin and destination when only 2 days are normally needed. Also, the Postal Service’s
                                                                      service standards were based on HCR transportation. Management did not consider the additional transit times needed for rail
                                                                      in their analysis even though service standards could still possibly be met with the additional transit times. They only considered
                                                                      HCR transit times and determined rail was not a viable option.
Recommendation
Appendices




                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                                                                                                                  Print                                     9
Highlights
                    Recommendation                                    We recommend the vice president, Network Operations:

                                                                      1.	 Perform a cost/benefit analysis of transportation associated with the New Jersey Network Distribution Center and Consolidation
                                                                          and Deconsolidation Facility to determine if rail is more cost-effective than highway contact routes, taking into account rates
                                                                          from multiple intermodal providers and service performance.

                                                                      2.	 Adjust operating plans for Standard Mail and Package Services Mail, when doing so is economical and meets service
                        We recommend management                           standards, to further accommodate the use of rail for trips associated with the New Jersey Network Distribution Center.
Table of Contents




                              conduct a cost/benefit
                                                                      3.	 Consider moving Periodical Mail volume through the existing Surface Transfer Center network, if deemed appropriate based on
                           analysis of transportation                     service and cost, to ensure this mail class meets its service standards.

                           costs associated with the                  4.	 Test to determine if the Postal Service can convert some highway contract route transportation to rail where economical and
                       New Jersey NDC to determine                        service responsive for transportation associated with the New Jersey Network Distribution Center.

                          if rail is more cost-effective              Management’s Comments
                       than HCR; test whether some                    Management disagreed with our overall finding to convert 41 HCR trips associated with the New Jersey NDC and CDF to rail,
                                                                      stating that it could convert only one transportation lane to rail and still meet service standards. Management did not agree with
                          HCR transportation can be                   the $10.8 million in savings we identified and concluded we used flawed analysis to identify trips for conversion. Management
                                                                      contends that they cannot convert these trips to rail unless they also change service standards to accommodate the use of rail.
                      converted to rail; and, consider
Findings




                     moving Periodicals through the                   Management stated that the Postal Service analyzed rail use in October 2012 for its NDCs and determined that only one lane
                                                                      (New Jersey to Jacksonville) was service responsive for rail. However, management determined that implementation was not
                       established STC network, and                   feasible at the time.
                         changing operating plans to
                                                                      Management stated that we did not include all costs associated with use of rail over HCRs in our analysis, including transit costs
                                  accommodate rail.                   to the rail provider, the cost of scanning during rail transit, the cost of changing systems associated with dispatch and routing by
Recommendation




                                                                      rail, and the rail transit costs. Management also stated that rail is designed to meet the needs of its largest customers and that rail
                                                                      transit times do not meet Postal Service requirements. Management further stated that they established mail processing times to
                                                                      meet service standards and they cannot arbitrarily change them to meet rail transportation requirements.

                                                                      Management provided one reason for disagreeing with the OIG’s analysis of one of the lanes, stating that using rail would not
                                                                      meet the Postal Service’s 7-day service standard for the mail type. Management stated that the New Jersey to Atlanta lane could
                                                                      not be transported by rail and meet service standards since HCR total transportation time was 7 days and rail transportation would
                                                                      be 8 days.

                                                                      Below is a summary of the management’s comments to the recommendations. Management agreed with recommendations
                                                                      1 and 4, but only with respect to pursuing conversion of one transportation lane to rail. Management agreed with recommendation
Appendices




                                                                      3 stating they have already implemented it and disagreed with recommendation 2.




                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                                                                                                                   Print                                   10
Highlights                                                            Regarding recommendation 1, management stated they will solicit intermodal providers for the one lane they believe is service
                                                                      responsive (New Jersey to Jacksonville) and determine if it is cost effective to convert to rail from HCR. The target date for
                                                                      implementation is March 2015.

                                                                      Regarding recommendation 2, management stated that processing times were designed to meet service standards for Standard
                                                                      and Package Services mail and that modifying processing times to accommodate rail transit times is not feasible.

                                                                      Regarding recommendation 3, management stated that the Postal Service already transports Periodicals mail through the
                                                                      STC network by design and no further action is necessary.
Table of Contents




                                                                      Regarding recommendation 4, management stated they would conduct a pilot test for the one lane already identified if determined
                                                                      to be cost effective based on solicitation from intermodal providers in response to recommendation 1. The target implementation
                                                                      date is September 2015.

                                                                      See Appendix B for management’s comments, in their entirety.

                                                                      Evaluation of Management’s Comments
                                                                      The OIG considers management’s comments minimally responsive to recommendations 1 and 4, non-responsive to
                                                                      recommendation 2, and responsive to recommendation 3. Further, corrective actions implemented or planned will not resolve
                                                                      all the issues in the report and the OIG will work with management in closing out the significant recommendations to resolve
Findings




                                                                      management’s disagreement and concerns.

                                                                      Regarding management’s overall disagreement with converting 41 identified HCR trips to rail with the exception of one, we still
                                                                      deem our analyses, conclusions, and monetary impact valid. During the audit, the OIG performed a thorough review of possible
                                                                      rail implementation, considering costs the Postal Service identified in its response as lacking in our analysis. The rail quotes
                                                                      received included door-to-door pricing, the cost of containers, and the required time for transit and delivery to and from
                                                                      Postal Service facilities. In addition, the intermodal companies provide up-to-date tracking of the containers during transport as
Recommendation




                                                                      part of their pricing.

                                                                      Management provided an example that transporting mail by rail is not viable because a portion of mail [the L009 and L011] would
                                                                      not meet service standards. Further, they stated the OIG did not consider this mail volume in their analysis. The OIG did consider
                                                                      this mail volume and determined this mail volume represented a small portion (about one percent) of the total mail volume
                                                                      transported on this particular lane. The OIG concluded that this mail could be transported through the existing STC network and
                                                                      still allow the Postal Service to reduce cost and meet service by transporting the remaining mail by rail.

                                                                      Regarding recommendation 2, the OIG is recommending the Postal Service consider rail transit times in its operating plans. The
                                                                      Postal Service conducts an annual mail arrival profile, which may alter its current operating plans and it can include the possibility
                                                                      of using rail transportation in that analysis - which can be more cost effective and have only a minor impact on current operations.
Appendices




                                                                      The OIG acknowledges in the report that there may be some costs associated with these changes and that a cost/benefit analysis
                                                                      should be performed considering any impacts on service.




                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                                                                                                                  Print                                    11
Highlights                                                            The OIG considers recommendations 1 through 4 significant, and therefore requires OIG concurrence before closure.
                                                                      Consequently, the OIG requests written confirmation when corrective actions are completed. These recommendations should not
                                                                      be closed in the Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendations
                                                                      can be closed.
Table of Contents
Findings
Recommendation
Appendices




                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                                                                                                               Print                                 12
Highlights
                    Appendices

                                                                      Appendix A: Additional Information...........................................................14
                                                                       Background ...........................................................................................14
                           Click on the appendix title                 Objective, Scope, and Methodology.......................................................15
                                                                       Prior Audit Coverage..............................................................................16
Table of Contents




                           to the right to navigate to
                                                                      Appendix B. Management’s Comments....................................................17
                                 the section content.
Findings
Recommendation
Appendices




                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                                                                                                      Print                       13
Highlights          Appendix A:                                       Background
                    Additional Information                            The Postal Service’s NDCs are part of a national system of 21 automated mail processing facilities linked by a transportation
                                                                      network dedicated to handling and moving Standard bulk mail. The Postal Service meets the majority of its long-distance surface
                                                                      transportation needs for NDCs and CDFs using highway transportation – known as HCRs – instead of rail. In 2013, the
                                                                      Postal Service spent more than $3.4 billion on highway contracts compared to about $43 million on rail.

                                                                      In 2010 the Postal Service started using the CDF network to consolidate NDC mail volume for transport. There are 19 CDFs in
                                                                      close proximity to NDCs, nine of which only perform deconsolidation operations. These facilities take mail in shipping containers
Table of Contents




                                                                      and load it into trailers to reduce the number of underused outbound trips. The mail arrives at the destinating deconsolidation
                                                                      center where it is unloaded back into shipping containers and then sent to the destinating NDC. The goal is to have contractors
                                                                      consolidate two or three HCR trips into one by better utilizing the cubic space in the trailers. These efforts also created potential
                                                                      opportunities to use rail, given that transport companies already consolidate and manage these loads.

                                                                      Standard Bulk Mail Service Standards. Standard bulk mail refers to larger quantities of mail prepared for mailing by both mailers
                                                                      and the Postal Service to reduce postage costs. This mail class does not receive expedited service. Rail can accommodate the
                                                                      3- to 10-day service standard for Standard bulk mail. The Postal Service standards for this class of mail are based on the use of
                                                                      HCR transit times, which provide additional assurance that mail will meet service standards.

                                                                      Highway Transportation Challenges. Trends in the trucking industry indicate that it is facing challenges that may impact its ability
                                                                      to meet demands for service. Currently, the highway transportation industry is challenged to find and keep qualified drivers due to
Findings




                                                                      driver age, pay, and work demands. Further, fuel costs continue to rise and fuel surcharges are rising to the point where total fuel
                                                                      costs can be 50 percent of the cost for a long-distance truckload.

                                                                      Rail Benefits and Environmental Impact. Rail companies have significantly improved their infrastructure, as well as expanded their
                                                                      use of intermodal transport. Rail has numerous benefits when compared to highway transportation: it can be less expensive; it
                                                                      uses standardized containers; and it achieves efficiencies through double-stacking. Rail improvements, which have been made
                                                                      due to pressure from customers, have affected both service and infrastructure. Also, rail has a much smaller carbon footprint than
Recommendation




                                                                      highway transportation.

                                                                      Postal Service competitors, seeking to cut costs and reduce greenhouse gas emissions, have been expanding their use of rail by
                                                                      realigning their networks with railroads. By using intermodal providers, companies have multiple modes of transport (either rail,
                                                                      ship, or truck) and can easily transfer the goods shipped.

                                                                      Using rail rather than highway transportation can also benefit the environment. For example, one industry initiative group10 states
                                                                      the following facts regarding rail:

                                                                      ■■ Diverting 10 percent of national long-distance freight to rail would save over 1 billion gallons of fuel annually.
Appendices




                                                                      ■■ Railroads have increased fuel efficiency to 94 percent since 1980.


                                                                      10	 Information presented at a July 13, 2010, Chicago Area Locomotive and Railyard meeting and taken from the Midwest Clean Diesel Initiative (MCDI) website that was
                                                                          linked from the Environmental Protection Agency’s website. MCDI is “a voluntary program to reduce diesel emissions and diesel fuel usage in the Midwest….” Federal,
                                                                          state, and local governments, private companies, and non-profit organizations collaborate to create and support clean diesel coalitions that carry out actions in each state.
                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                                                                                                                                               Print                                               14
Highlights                                                            ■■ One double-stacked train holds the equivalent of up to 280 truckloads.

                                                                      ■■ Trains are 2-4 times more economical than trucks in terms of fuel on a ton-per-mile basis.

                                                                      ■■ Trains have one-third the greenhouse gas emissions of trucks on a ton-per-mile basis.

                                                                      ■■ Trains are 2-3 times cleaner than trucks on a ton-per-mile basis.

                                                                      ■■ Trains consume 57 percent less energy than trucks.
Table of Contents




                                                                      Objective, Scope, and Methodology
                                                                      Our objective was to determine whether opportunities exist to economically and effectively use rail to transport mail within the NDC
                                                                      network. This report focuses on Standard Mail and Package Services Mail for round-trip transportation routes from the New Jersey
                                                                      NDC and CDF back to the New Jersey Metro Area.11 We selected this location based on its large originating mail volumes and the
                                                                      Postal Service’s history of piloting the CDF network from New Jersey.12 We chose the CDF network because the majority of its
                                                                      trucks are at maximum capacity due to efforts to consolidate mail and minimize trips. In addition, the Postal Service can control the
                                                                      inventory of trailers and rail cars in the CDF network. The third-party contractor that manages the CDF would handle all operations.

                                                                      To meet our objective, we reviewed trips between specific origins and destinations, HCR transportation, and trailer use; and
                                                                      conducted site visits to the New Jersey NDC and CDF. We determined HCR costs associated with the New Jersey NDC and CDF.
Findings




                                                                      We obtained pricing and route information from two intermodal companies and then analyzed rail rate and schedule information.
                                                                      We then compared HCR costs to the rail costs calculated to identify any cost savings. In addition, we summarized the findings and
                                                                      discussed our results with Postal Service HQ personnel. We also held a focus group in Chicago, IL, on March 26, 2014, to discuss
                                                                      highway transportation issues and the benefits of rail and considered those results in our analyses.

                                                                      To calculate cost savings we included trips that fit into the Postal Service’s operating plan and meet current service standards, as
                                                                      well as CTs and CETs. To determine whether rail is a viable option, we allowed for 3 hours of mail preparation at the CDF prior
Recommendation




                                                                      to the NDC CET and 3 hours after the NDC CT. We reviewed existing surface routes that are CDF-to-CDF and existing surface
                                                                      routes where the origin or destination is a nearby NDC plant that could be converted to a CDF trip by using rail transportation. We
                                                                      could not obtain the service performance of all the trips for the quotes from the intermodal companies to ensure they meet current
                                                                      Postal Service standards.13

                                                                      We relied on Postal Service computer-processed data, including the Transportation Contract Support System, and trailer utilization
                                                                      data from the Transportation Information Management and Evaluation System. We determined the data used were sufficiently
                                                                      reliable for the purposes of this report. We did not assess the reliability of any computer-generated data for the purposes of
                                                                      this report.
Appendices




                                                                      11	 Destinations more than 750 miles from New Jersey include Atlanta, GA; Chicago, IL; Dallas, TX; Denver, CO; Des Moines, IA; Jacksonville, FL; Kansas City, KS;
                                                                          Los Angeles, CA; Memphis, TN; Minneapolis/St. Paul, MN; Seattle, WA; St. Louis, MO; and San Francisco, CA.
                                                                      12	 In 2010, Network Operations began its CDF pilot (to reduce the number of HCR trips) with two NDC transportation trips. Based on its success, it subsequently expanded
                                                                          and continues to expand this network.
                                                                      13	 The Postal Service would have to coordinate efforts with potential providers to ensure that rail departures and arrivals are timely and meet Postal Service standards.
                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                                                                                                                                            Print                                             15
Highlights                                                            We conducted this performance audit from May 2013 through September 2014,14 in accordance with generally accepted
                                                                      government auditing standards and included such tests of internal controls as we considered necessary under the circumstances.
                                                                      Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
                                                                      basis for our finding and conclusions based on our audit objective. We believe that the evidence obtained provides a reasonable
                                                                      basis for our finding and conclusions based on our audit objective. We discussed our observations and conclusions with
                                                                      management on August 22, 2014, and included their comments where appropriate.

                                                                      Prior Audit Coverage
Table of Contents




                                                                                                                                                                                                                   Monetary Impact
                                                                       Report Title                                         Report Number                             Final Report Date                              (in millions)
                                                                       Parallel Tracks? Lessons from
                                                                                                                           RARC-WP-12-014                                    8/13/2012                                     None
                                                                       the Railroad Industry
                                                                       Report Results: This white paper examines parallels between the railroad industry as it moves from crisis to recovery and the
                                                                       Postal Service’s current state of affairs. Similar to the railroad industry, the Postal Service needs to focus on three elements to
                                                                       recover from its financial crisis: productivity improvements, revenue generation, and cost containment.
                                                                       Strategic Advantages of Moving
                                                                                                                           RARC-WP-12-013                                    7/16/2012                                     None
                                                                       Mail by Rail
                                                                       Report Results: This white paper found that by increasing its use of intermodal rail the Postal Service could save transportation
                                                                       costs, gain long-term strategic advantages, and still continue to meet existing service standards. Potential savings could be at least
Findings




                                                                       $100 million per year if the Postal Service used intermodal services within the NDC network.
                                                                       POSTAL SERVICE INITIATIVE:
                                                                       Consolidation of Mail for
                                                                                                                              NL-AR-12-006                                  5/29/2012                                      $15.3
                                                                       Transportation Between
                                                                       Network Distribution Centers
                                                                       Report Results: This report found that consolidation increased mail handling time and costs but saved money overall and improved
                                                                       trailer utilization. Management generally agreed with our recommendations, but not our monetary impact, stating they expanded the
                                                                       number of consolidation lanes in February 2012 and continue pursuing additional opportunities and a 2.5:1 utilization ratio.
Recommendation
Appendices




                                                                      14	 Audit work was delayed for about 5 months due to ongoing plans by the Postal Service to test the use of rail. During that period, the OIG monitored the plans as part of
                                                                          the audit. The plans were subsequently abandoned by the Postal Service, and we continued audit work as initially planned in November 2013.
                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                                                                                                                                              Print                                              16
Highlights          Appendix B.
                    Management’s Comments
Table of Contents
Findings
Recommendation
Appendices




                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                      Print   17
Highlights
Table of Contents
Findings
Recommendation
Appendices




                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                      Print   18
Highlights
Table of Contents
Findings
Recommendation
Appendices




                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                      Print   19
Highlights
Table of Contents
Findings
Recommendation
Appendices




                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                      Print   20
Highlights
Table of Contents
Findings




                                                                         Contact us via our Hotline and FOIA forms, follow us on social
                                                                      networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                             or abuse. Stay informed.

                                                                                            1735 North Lynn Street
Recommendation




                                                                                           Arlington, VA 22209-2020
                                                                                                 (703) 248-2100
Appendices




                    Suitability of Rail Transportation – New Jersey
                    Network Distribution Center
                    Report Number NO-AR-14-013
                                                                                                                                               Print   21
